                               CLOSEOUT FOR M92030012

                                   of the Directorate




submitted by the first of two subjects in this cas

     The first subject is a a             tt              h             e             e The second
sub'ect, identified during OIG's discussion with the first subject i                   -a
                             the first subject's laboratory. The second subject had only recently
been promoted to             y the first subject to afford the second subject more research freedom
and to allow her to apply for research funds as a PI.

      OIG compared the original author's published paper with the proposal and found one passage
of 15 lines in the background information section that had been copied from the author's text. This
passage had not been offset by indentations or quotation marks and was not accompanied by a
citation to the original author. OIG also found a second passage of text in the proposal's
background section that, although it was not copied from the original author's article, drew on
information from that article. That passage was accompanied by a citation to the original author's
article.

      In response to OIG's request for information the first subject stated that, with her approval,
the second subject had written the proposal' as a first step in establishing an independent research
program. Just prior to its submission to NSF the subjects' institution informed them that under its
rules the second subject could not submit a proposal to a federal agency. The fmt subject then
submitted the proposal as the sole PI and listed the second subject as an              the proposal's
budget. The first subject revised the proposed research to be somewhat more in line with her own.
The first subject's response to OIG was accompanied by a statement from the second subject
accepting full responsibility for the copying and corroborating the first subject's statements.

      OIG determined that a full investigation into this allegation was required including a better
understanding of the professional relationship between the two subjects and the institution's
decision prohibiting the second subject from submitting a proposal to a federal agency. OIG
deferred this investigation to the institution.

      Institutional officials confirmed that the second subject was prohibited by institutional rules
from submitting a proposal to a federal agency. The second subject had been informed of this rule
only after the completed proposal was being circulated internally for administrative signatures.

     Upon review, OIG found that the institution's investigating committee conducted a very
thorough, accurate, and complete investigation. The institution's investigation report found that
the occurrence of the original author's material without offset or citation was due to the second
subject's haste and carelessness when preparing the first proposal draft. The second subject's


                                            Page 1 of 2
                               CLOSEOUT FOR M92030012
omission of quote marks and credit was carried forward in subsequent drafts and in the submitted
proposal. The committee could not find any evidence to conclude that this copying was part of
a pattern. The first subject was unaware of the presence of the copied text.

      The committee found that this single instance of copying was mitigated by the inexperience
of the second subject and the use of the material in the background information section of the
proposal. The institution accepted the committee's findings and sent a letter of caution to the first
subject reminding her that her responsibilities as a mentor included providing subordinates with
instruction on misconduct issues. A letter was sent to the second subject reprimanding her for
committing plagiarism. A copy was placed in her faculty record file.

     OIG agreed with the committee's findings. OIG felt that this instance of copying was also
mitigated by the inclusion of a citation to the original author's article following proposal text that
used information fiom that article but did not copy text from it. The inclusion of this citation
supported the committee's finding that the second subject's failure to offset the copied material and
provide a citation was caused by haste and carelessness.

      OIG concluded that no further action was necessary after all the mitigating circumstances
were considered, i.e. the copied material was in the background section not in the proposed work,
a citation to the original work was included elsewhere in the proposal, the second subject was
relatively inexperienced, the submitted proposal was prepared in haste, the small amount of
copying, and the absence of any evidence of a pattern of copying in this or previous works by the
proposal's authors. OIG determined that the actions taken by institution were sufficient with regard
to this matter and, therefore, closed this case.




                                            Concurrence:



Donald E. Buzzelli
Deputy Assistant Inspector General,                  Assistant Inspector General for Oversight
Oversight



Nancy Cmbaum
Assistant Counsel to the Inspector General

cc:   Assistant Inspector General for Oversight
      Inspector General
      Counsel to the Inspector General


                                             Page 2 of 2
